No.

IN THE
SUPREME COURT OF THE UNITED STATES
GERTI MUHO,
Petitioner,
v.
UNITED STATES OF AMERICA,
Respondent.
On Petition for Writ of Certiorari to the
United States Court of Appeals
For the Eleventh Circuit
PETITION FOR WRIT OF CERTIORARI

Jacqueline E. Shapiro
40 N.W. 3rd Street, PH 1
Miami, Florida 33128
Tel. 305-403-8207
shapiro.miamilaw@gmail.com
Counsel for Petitioner

QUESTION PRESENTED
Petitioner, who was pro se in his criminal trial on federal fraud offenses, timely
requested issuance of a subpoena for an essential witness, his treating psychiatrist who
supported the theory of defense that petitioner believed his actions in handling assets
of an investment company were necessary to prevent wrongful misappropriation by the
company. The district court denied the request, with no explanation; no other witness
attested to the facts for which the psychiatrist’s testimony was sought; and the court
of appeals affirmed, offering its own view of the need for the witness, stating that
petitioner did “not demonstrate[] specific facts or admissible opinions from this witness
that show relevancy and necessity.” The question presented is:
Because the deprivation of essential, singular witness testimony supporting an
indigent defendant’s theory of defense violates the right to compulsory process and a
fair trial under the Sixth Amendment and the right against unreasonable
discrimination based on financial disability in the criminal justice system, may an
appellate court affirm denial of a witness subpoena simply by finding reasons that a
district court might have relied on where there is no indication that the district court
evaluated discretionary questions of evidentiary admissibility in the first instance?

i

INTERESTED PARTIES
The caption contains the names of all of the parties interested in the
proceedings.

ii

TABLE OF CONTENTS
QUESTION PRESENTED . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i
INTERESTED PARTIES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . ii
TABLE OF AUTHORITIES . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . iv
PETITION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
OPINION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
STATEMENT OF JURISDICTION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED . . . . . . . . . . . 1
STATEMENT OF THE CASE . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
REASONS FOR GRANTING THE WRIT . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 4
A criminal defendant has a right to a district court’s evaluation of a proffer
of evidence for admissibility and relevancy, and the violation of that right,
depriving an indigent, pro se defendant of process needed to present an
essential witness to support the theory of defense, violates the Sixth
Amendment rights to compulsory process and a fair trial and the Fifth
Amendment right not to be subjected to unreasonable discrimination in the
criminal justice system because of financial status . . . . . . . . . . . . . . . . . . . . . . 4
CONCLUSION . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 9
APPENDIX
Decision of the Court of Appeals for the Eleventh Circuit United States
v. Gerti Muho, No. 18-11248 (Oct. 22, 2020) . . . . . . . . . . . . . . . . . . . . . . App. 1
Judgment of Conviction, United States District Court, S.D. Fla.,
United States v. Gerti Muho, No. 16-cr-20390-BB (Mar. 13, 2018
2018) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . App. 27

iii

TABLE OF AUTHORITIES
CASES:
Bandy v. United States, 296 F.2d 882 (8th Cir. 1961) . . . . . . . . . . . . . . . . . . . . . . . . 5
Burns v. Ohio, 360 U.S. 252 (1959) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
Coppedge v. United States, 369 U.S. 438 (1962) . . . . . . . . . . . . . . . . . . . . . . . . . . . . 7
Greenwell v. United States, 317 F.2d 108 (D.C. Cir. 1963) . . . . . . . . . . . . . . . . . . . . 7
Griffin v. Illinois, 352 U.S. 12 (1956) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
Hybert v. The Hearst Corp., 900 F.2d 1040 (7th Cir. 1990) . . . . . . . . . . . . . . . . . . . . 7
McDonald v. Head Criminal Court Supervisor Officer,
850 F.2d 121 (2d Cir. 1988) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6
Robb v. Norfolk & W. Ry. Co., 122 F.3d 354 (7th Cir. 1997) . . . . . . . . . . . . . . . . . . . 7
Smith v. Bennett, 365 U.S. 708 (1961) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6, 9
Taylor v. United States, 329 F.2d 384 (5th Cir.1964) . . . . . . . . . . . . . . . . . . . . . . . . 5
United States v. Cohen, 888 F.2d 770 (11th Cir. 1989) . . . . . . . . . . . . . . . . . . . . . . . 5
United States v. Hegwood, 562 F.2d 946 (5th Cir. 1977) . . . . . . . . . . . . . . . . . . . . . . 6
Washington v. Texas, 388 U.S. 14 (1967) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 6, 9
STATUTORY AND OTHER AUTHORITY:
U.S. Const. amend. V . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i, 1, 4, 5, 7
U.S. Const. amend. VI . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . i, 1, 4, 5, 6, 7
18 U.S.C. § 1028(a)(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
18 U.S.C. §1344 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
18 U.S.C. § 1343 . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2
iv

28 U.S.C. § 1254(1) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1
Fed. R. Crim. P. 17(b) . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 2, 4, 5
Sup. Ct. R. Part III . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 1

v

PETITION FOR WRIT OF CERTIORARI
Gerti Muho respectfully petitions the Supreme Court of the United States for
a writ of certiorari to review the published decision of the United States Court of
Appeals for the Eleventh Circuit, entered in case number 18-11248 on October 22,
2020, United States v. Muho, reported at 978 F.3d 1212.
OPINION BELOW
A copy of the decision of the United States Court of Appeals for the Eleventh
Circuit is contained in the Appendix (App. 1).
JURISDICTION
The jurisdiction of this Court is invoked under 28 U.S.C. § 1254(1) and Part III
of the Rules of the Supreme Court of the United States. The Court of Appeals issued
its decision on October 22, 2020. App. 1. This petition is timely filed.
CONSTITUTIONAL AND STATUTORY PROVISIONS INVOLVED
Petitioner relies upon the following constitutional and statutory provisions:
U.S. Const. amend. V (due process clause):
No person shall be held to answer for a capital, or otherwise infamous
crime, unless on a presentment or indictment of a Grand Jury ... ; nor
shall any person be subject for the same offence to be twice put in
jeopardy of life or limb; nor shall be compelled in any criminal case to be
a witness against himself, nor be deprived of life, liberty, or property,
without due process of law.
U.S. Const. amend. VI (right to jury trial in criminal cases):
In all criminal prosecutions, the accused shall enjoy the right to a speedy
and public trial, by an impartial jury of the State and district wherein the
crime shall have been committed, which district shall have been
previously ascertained by law, and to be informed of the nature and cause
1

of the accusation; to be confronted with the witnesses against him; to
have compulsory process for obtaining witnesses in his favor, and to have
the Assistance of Counsel for his defence.
STATEMENT OF THE CASE
Petitioner was charged in a multi-count superseding indictment with seven
counts of bank fraud in violation of 18 U.S.C. §1344, two counts of wire fraud in
violation of 18 U.S.C. § 1343, and seven counts of aggravated identity theft in violation
of 18 U.S.C. §1028(a)(1). The case arose from numerous financial transactions arising
from a complicated business relationship between the petitioner, an attorney with no
prior criminal history, and his previous employer, Fletcher Asset Management, during
2013-2016. Petitioner’s defense to charges of obtaining Fletcher-invested funds by
fraud was that he lacked criminal intent and was instead trying to investigate
Fletcher’s wrongdoing and recover losses for investors in funds managed by Fletcher.
Before trial, the petitioner underwent a competency examination at the
government’s request and with the agreement of his defense counsel. After being found
competent, the petitioner was allowed to represent himself in pretrial proceedings and
at a jury trial, with the assistance of appointed standby counsel.
The petitioner, who was found indigent for costs, moved under Rule 17(b) of the
Federal Rules of Criminal Procedure for a waiver of costs and issuance of subpoenas
for eight trial witnesses. The request was granted as to six witnesses. However, the
district court denied the request as to two additional witnesses without providing any
findings or explanation. The latter witnesses consisted of the petitioner’s treating
psychiatrist (Dr. Eli Shalenberger) during the period of the charged offenses and a
2

state court judge (Judge James Vaughn of the Delaware Supreme Court) who had
presided over an unrecorded telephonic conference in a court case involving investment
funds pertinent to the charges against the petitioner.
In requesting the waiver of costs and issuance of a subpoena as to Dr.
Shalenberger, the petitioner set forth specific written reasons for the testimony.
Petitioner stated that Dr. Shalenberger was his psychiatrist between 2012 and
2015—the period of the charged offenses—and that
he needs and expects Dr. Shalenberger to testify that Muho's intentions
were not to defraud his hedge funds but to save them from misuse and to
comply with the law. This will negate that Defendant perpetrated a
fraud scheme and Defendant used proceeds of fraud to engage in
monetary transactions. Defendant also expects [D]r. Shalenberger to
testify as to Defendant’s state of mind from his conversations with
Defendant related to all counts of the case. Absent [Dr.] Shalenberger's
testimony, the Defendant will not be able to prove or show his defense to
the jury of the charged counts in this case.
DE:21:2.
At trial, the petitioner presented three witnesses: the petitioner himself; an
attorney who testified he did not remember meeting or corresponding with the
petitioner; and a federal law enforcement agent, who testified about two meetings
initiated by the petitioner in 2013 that did not culminate in petitioner’s becoming
retained as a confidential informant. Further, the government presented a witness
who testified that the petitioner’s conduct was both odd and erratic. Following an 11day jury trial, the petitioner was found guilty on all counts. At sentencing, the district
court imposed a 240-month sentence.

3

On appeal, the petitioner challenged the deprivation of his ability to call Dr.
Shalenberger as a witness critical to his defense at trial. The Eleventh Circuit rejected
the petitioner’s challenges and affirmed his conviction and sentence in a published
decision. App. 1 (United States v. Muho, 978 F.3d 1212 (11th Cir. 2020)).
The Eleventh Circuit found, regarding the denial of petitioner’s request as to Dr.
Shalenberger, that the district court had “provided no rationale, and made no factual
findings,” and further found that it was permissible for a defendant to seek psychiatric
testimony regarding, inter alia, his mental state. App. 10. Despite these findings, the
Eleventh Circuit held that, based on its independent review of the record, the
petitioner had not made the requisite showing as to “specific facts or admissible
opinions” from Dr. Shalenberger, and that the deprivation of the witness’s testimony
was not an error affecting petitioner’s substantial rights. App. 11.
REASONS FOR GRANTING THE PETITION
A criminal defendant has a right to a district court’s evaluation
of a proffer of evidence for admissibility and relevancy, and the
violation of that right, depriving an indigent, pro se defendant of
process needed to present an essential witness to support the
theory of defense, violates the Sixth Amendment rights to
compulsory process and a fair trial and the Fifth Amendment
right not to be subjected to unreasonable discrimination in the
criminal justice system because of financial status.
The Eleventh Circuit’s decision, rejecting the petitioner’s challenge to the
district court’s unexplained denial of petitioner’s timely motion under Federal Rule of
Criminal Procedure 17(b) to waive costs and issue a subpoena for witness testimony
regarding the petitioner’s lack of criminal intent for the charged offenses, was

4

premised on the imposition of overly-stringent burdens on the indigent, pro se
defendant with respect to convincing appellate judges, rather than the district court,
of the need for the witness and the impact of the precluded testimony on the jury’s
verdict. The court of appeals, in providing its perception of the witness’s bearing on
the defense theory, supplanted the district court’s role in exercising its discretion
within the parameters of Rule 17(b), impairing petitioner’s fundamental Fifth and
Sixth Amendment rights to compulsory process, a fair trial, and the right against
unreasonable discrimination based on financial disability in the criminal justice
system.
Rule 17(b), which governs the issuance of witness subpoenas in criminal cases,
directs the court to issue a subpoena at government expense for witnesses requested
by the defendant ‘upon a satisfactory showing that the defendant is financially unable
to pay the fees of the witness and that the presence of the witness is necessary for an
adequate defense.’” Id.
It is well-settled that the district court’s discretion with respect to ruling on a
motion under Fed. R. Crim. P. 17(b) is “considerably narrowed” by the defendant’s
Fifth and Sixth Amendment rights. See United States v. Barker, 553 F.2d 1013, 1019
(6th Cir. 1977) (the right of an indigent criminal defendant to subpoena witnesses rests
not only on Rule 17(b), but also on the Sixth Amendment right to compulsory process
... and on the Fifth Amendment right not to be subjected to disabilities by the criminal
justice system because of financial status.”)(citing Bandy v. United States, 296 F.2d
882, 887–88 (8th Cir. 1961); Taylor v. United States, 329 F.2d 384, 386 (5th Cir.1964));
5

See also United States v. Cohen, 888 F.2d 770, 777 (11th Cir. 1989) (trial court’s
discretion with regard to admission of evidence does not extend to excluding crucial
relevant evidence; exclusion of evidence crucial to defense required new trial).
Moreover, the government has the burden to refute the propriety of the defendant’s
request, once the defendant shows facts relevant to his defense. See United States v.
Hegwood, 562 F.2d 946, 953 (5th Cir. 1977).
As the Court found in Washington v. Texas, 388 U.S. 14 (1967), the Sixth
Amendment’s Compulsory Process guarantee was violated when the defendant was
arbitrarily deprived of “testimony [that] would have been relevant and material, and
... vital to the defense.” Id. at 16. To do so in the case of a pro se defendant, as here,
also runs afoul of the accepted principal that greater—not less—leeway is to be
afforded pro se litigants. See, e.g., McDonald v. Head Criminal Court Supervisor
Officer, 850 F.2d 121, 124 (2d Cir. 1988).
Moreover, the district court’s denial, without affording any explanation, of
petitioner’s request for critical testimony of his treating psychiatrist during the offense
period left the petitioner at a grave disadvantage based solely on his financial
disability. See Smith v. Bennett, 365 U.S. 708, 710–11 (1961) (recognizing abiding
principles that ‘(t)here can be no equal justice where the kind of trial a man gets
depends on the amount of money he has,’ and consequently that ‘(t)he imposition by
the State of financial barriers restricting the availability of appellate review for
indigent criminal defendants has no place in our heritage of Equal Justice Under

6

Law.’”) (quoting Griffin v. Illinois, 352 U.S. 12, 19 (1956); Burns v. Ohio, 360 U.S. 252,
258 (1959)).
As the District of Columbia Circuit Court of Appeals has observed, this Court’s
decision in Coppedge v. United States, 369 U.S. 438 (1962), “makes clear the duty of
Federal courts is ‘to assure to the greatest degree possible’ within the framework of the
relevant statutes [for appeals] ‘equal treatment for every litigant’ before the bar of
criminal justice, regardless of financial ability.” Greenwell v. United States, 317 F.2d
108, 110 n.5 (D.C. Cir. 1963) (quoting Coppedge, 369 U.S. at 446–47).
In petitioner’s case, neither the district court nor the prosecution ever indicated
that Dr. Shalenberger’s proffered testimony did not show facts that were relevant to
the petitioner’s defense of lack of fraudulent intent, or offer any other reason to deny
his request. Given the circumscribed nature of the trial court’s discretion, the Court
of Appeals’ effort to remedy on appeal the failure to articulate any reason for the
district court’s ruling and failure to hold the government to its burden violated
petitioner’s Fifth and Sixth Amendment rights and improperly supplanted the district
court’s role with its own. The fact that a court of appeals can address in the first
instance issues that were presented to the trial court, but as to which a defendant was
deprived of a discretionary ruling by the trial court, does not mean that an appellate
court should supplant the trial court’s role as first-instance adjudicator on matters
committed to its discretion. See Robb v. Norfolk & W. Ry. Co., 122 F.3d 354, 361 (7th
Cir. 1997) (“In the absence of an actual exercise of discretion by the trial judge, it
would be problematic to hold that there has been an abuse of discretion in this case.”).
7

Cf. Hybert v. The Hearst Corp., 900 F.2d 1040, 1054 (7th Cir. 1990) (appellate court
must be careful to avoid supplanting its view of the evidence for that of the jury or the
trial judge).
The request for the minimal funds necessary for a subpoena as to Dr.
Shalenberger—the defendant’s psychiatrist—was based on the testimony’s relevance
to petitioner’s defense of lack of criminal intent, in that he never intended to steal or
defraud anyone, that he believed his conduct was authorized, and that the drugs he
was prescribed and used contributed to his behavior. Dr. Shalenberger was sought also
for relevant testimony regarding the petitioner’s treatment, diagnosis, medications
prescribed to and the effects of the medication on petitioner, who was not a doctor and
thus was unable to offer such testimony. The petitioner’s mental state was an issue
pretrial when he was sent for a competency evaluation based on the government’s
motion. And it was at issue at trial, as well, where petitioner’s behavior and dress
were described by a government witness as erratic and odd. Most critically, Dr.
Shalenberger’s testimony was needed to support Muho’s uncorroborated testimony that
he lacked the specific, fraudulent intent required for the offenses and instead intended
to help other investors preserve and recover their monies from his employer.
The denial of a subpoena for Dr. Shalenberger was reversible error because it
would have allowed singular, noncumulative testimony regarding the petitioner’s state
of mind, specifically that the petitioner appeared to genuinely believe that his
corporate employer was engaged in fraudulent wrongdoing which the petitioner was
attempting to rectify appropriately. And the testimony of Dr. Shalenberger would have
8

placed petitioner’s behavior in context, including regarding government testimony
about the petitioner’s odd and erratic behavior, his diagnosis, medications prescribed
to and effects of medication on the petitioner.
Moreover, the testimony sought in petitioner’s case would not have been
cumulative, where petitioner presented testimony by only three witnesses, an attorney
(who testified he did not remember meeting or corresponding with Muho); a law
enforcement officer (who testified about 2 meetings initiated by Muho in 2013 that did
not culminate in Muho becoming retained as a confidential informant), and petitioner
himself—none of whom were able to provide the testimony sought from petitioner’s
treating psychiatrist.
In concluding otherwise and precluding the indigent, pro se petitioner from being
able to present singular, factual evidence to support his otherwise uncorroborated
testimony regarding his lack of criminal intent, the court of appeals displaced the trial
court’s requisite exercise of discretion with its own, and further jettisoned the
petitioner’s core rights to compulsory process and the ability to prepare a defense, and
against unreasonable discrimination in the criminal justice system on the basis of
financial status, meriting certiorari review. See Washington v. Texas, 388 U.S. at 16;
Smith v. Bennett, 365 U.S. at 710–11.
CONCLUSION
For the foregoing reasons, the Court should grant the petition for a writ of
certiorari.

9

Respectfully submitted,

JACQUELINE E. SHAPIRO, ESQ.
Counsel for Petitioner

Miami, Florida
March 2021

10

APPENDIX

APPENDIX

Decision of the Court of Appeals for the Eleventh Circuit, United States
v. Gerti Muho, No. 18-11248 (Oct. 22, 2020) . . . . . . . . . . . . . . . . . . . . . . App. 1
Judgment of Conviction, United States District Court, S.D. Fla., United
States v. Gerti Muho, No. 16-cr-20390-BB (Mar. 13, 2018 . . . . . . . . . . App. 27

USCA11 Case: 18-11248

Date Filed: 10/22/2020

Page: 1 of 26

[PUBLISH]
IN THE UNITED STATES COURT OF APPEALS
FOR THE ELEVENTH CIRCUIT
________________________
No. 18-11248
________________________
D.C. Docket No. 1:16-cr-20390-BB-1

UNITED STATES OF AMERICA,
Plaintiff–Appellee,
versus
GERTI MUHO,
Defendant–Appellant.
________________________
Appeal from the United States District Court
for the Southern District of Florida
________________________
(October 22, 2020)
Before MARTIN and NEWSOM, Circuit Judges, and WATKINS, * District Judge.

* Honorable W. Keith Watkins, United States District Judge for the Middle District of
Alabama, sitting by designation.

App. 1

USCA11 Case: 18-11248

Date Filed: 10/22/2020

Page: 2 of 26

WATKINS, District Judge:
Gerti Muho was convicted for bank fraud, wire fraud, aggravated identity
theft, and money laundering. He was sentenced to 264 months of incarceration.
Muho appeals his conviction and the sentence imposed by the district court. After
careful review, and with the benefit of oral argument, we affirm the district court
as to both the conviction and sentence.
I.
After graduating from law school, Gerti Muho began working for Fletcher
Asset Management (FAM), an investment firm. FAM had a number of subsidiary
and related entities, including RF Services and Soundview Elite, Ltd. Muho’s role
granted him access to the personal information of current and former employees
and interns of the firms.
In April 2013, Muho resigned from his positions at FAM, Soundview Elite,
and other entities. He then used a series of fraudulent documents purporting to reestablish his own authority and, in turn, to take control of FAM’s entities using
Leveraged Hawk, a shell company that he controlled. Among his many misdeeds,
he eventually convinced a bank, HSBC-Monaco, that he had legal authority to
execute financial transactions on behalf of Soundview Elite (which he did not)—
inducing HSBC-Monaco to wire transfer more than $2 million from Soundview
Elite’s account to Leveraged Hawk’s account with another bank.
2

App. 2

USCA11 Case: 18-11248

Date Filed: 10/22/2020

Page: 3 of 26

Muho was first indicted in May 2016. In September 2016, a grand jury
returned a 40-count second superseding indictment charging him with bank fraud,
in violation of 18 U.S.C. § 1344 (Counts 1–17); wire fraud, in violation of 18
U.S.C. § 1343 (Counts 18–19); aggravated identity theft, in violation of 18 U.S.C.
§ 1028A(a)(1) (Counts 20–37); and money laundering, in violation of 18 U.S.C.
§ 1957 (Counts 38–40).
Muho’s case involved a number of trial and sentencing rulings that are
relevant here. First, Muho was represented by a rotating cast of attorneys. While
represented by his third attorney, David Harris, he moved for leave to proceed pro
se with Harris as standby counsel. After a hearing, Muho’s request was granted.
Second, Muho, proceeding in forma pauperis, moved the court to waive costs and
issue subpoenas for eight witnesses under Federal Rule of Criminal Procedure
17(b). As relevant to this appeal, the court granted the motion as to all but two
witnesses; as to those two, the motion was denied without findings or explanation.
After an eleven-day trial and less than three hours of jury deliberation, Muho
was convicted on all charges. He was sentenced to 264 months’ imprisonment:
240 months as to Counts 1–19 and 120 months as to counts 38–40, to be served
concurrently; 24 months as to Counts 20–37, to be served concurrently with each
other and consecutively to the remaining counts; and five years of supervised
release. In calculating Muho’s sentence, the court applied a two-level
3

App. 3

USCA11 Case: 18-11248

Date Filed: 10/22/2020

Page: 4 of 26

enhancement under U.S.S.G. § 2B1.1(b)(16)(A), which applies if “the defendant
derived more than $1,000,000 in gross receipts from one or more financial
institutions as a result of the offense.”
On appeal, Muho raises four issues:
(1) Whether the district court erred in not reinstating counsel for Muho
despite his valid invocation of his right to self-representation;
(2) Whether the district court abused its discretion in denying, in part,
Muho’s Fed. R. Crim. P. 17(b) motion;
(3) Whether the district court erred in applying a two-level sentencing
enhancement for deriving more than $1,000,000 from a financial institution where
Muho fraudulently induced a bank to transfer funds from another customer’s
account; and
(4) Whether the district court imposed a sentence that was substantively
unreasonable.
II.
A. Failure to Appoint Counsel
Muho argues that the district court erred by allowing him to proceed pro
se—that is, by not sua sponte reinstating counsel for Muho—after he invoked his
right to self-representation.

4

App. 4

USCA11 Case: 18-11248

Date Filed: 10/22/2020

Page: 5 of 26

Muho cycled through a number of attorneys before moving for leave to
proceed pro se with his then-attorney, David Harris, as standby counsel, in January
2017. The government responded by requesting a Faretta hearing.1 There, the
court informed Muho that he lacked a constitutional right to standby counsel.
Muho reiterated his desire to push forward, confirming that he understood the
risks, believed himself capable, and had no diagnoses of mental illness. The court
found that Muho had voluntarily, knowingly, and intelligently waived his right to
counsel and was competent to proceed pro se. Muho did. Although he
periodically appeared to reconsider, Muho reaffirmed (and the court recognized,
after correctly questioning Muho to confirm) his desire to represent himself on
numerous occasions.
On appeal, Muho does not contest that he validly waived his right to
counsel. Rather, he argues that he “was deprived of his right to a fair trial when he
was allowed to continue to represent himself, even after he vacillated about selfrepresentation . . . .” Muho is wrong.

1. Faretta urged that a defendant be “made aware of the dangers and disadvantages of
self-representation, so that the record will establish that ‘he knows what he is doing and his
choice is made with eyes open.’” Faretta v. California, 422 U.S. 806, 835 (1975) (quoting
Adams v. United States ex rel. McCann, 317 U.S. 269, 279 (1942)). Our Circuit has understood
this language “to mean that ideally a trial court should hold a hearing to advise a criminal
defendant on the dangers of proceeding pro se and make an explicit finding that he has chosen to
represent himself with adequate knowledge of the possible consequences.” Nelson v. Alabama,
292 F.3d 1291, 1295 (11th Cir. 2002). These hearings are often referred to as “Faretta
hearings.”
5

App. 5

USCA11 Case: 18-11248

Date Filed: 10/22/2020

Page: 6 of 26

The Sixth Amendment to the United States Constitution guarantees familiar
rights to a criminal defendant: “In all criminal prosecutions, the accused shall
enjoy the right . . . to have the Assistance of Counsel for his defence.” But “[t]he
Sixth Amendment does not provide merely that a defense shall be made for the
accused; it grants to the accused personally the right to make his defense.” Faretta
v. California, 422 U.S. 806, 819 (1975) (emphasis added). Accordingly, a criminal
defendant has a “constitutional right to proceed without counsel when he
voluntarily and intelligently elects to do so.” Id. at 807.
Faretta protects an individual’s right to self-representation despite the
possible downsides. “It is the defendant . . . who must be free personally to decide
whether in his particular case counsel is to his advantage. And although he may
conduct his own defense ultimately to his own detriment, his choice must be
honored out of ‘that respect for the individual which is the lifeblood of the law.’”
Id. at 834 (quoting Illinois v. Allen, 397 U.S. 337, 350–351 (1970) (Brennan, J.,
concurring)). Faretta and subsequent caselaw make clear that, while a court may
terminate a defendant’s self-representation, that action is discretionary. See, e.g.,
id. at 834 n.46 (“[T]he trial judge may terminate self-representation by a defendant
who deliberately engages in serious and obstructionist misconduct.”). On the other
hand, this Court has explicitly recognized that “a trial court can commit reversible
constitutional error . . . by denying a proper assertion of the right to represent
6

App. 6

USCA11 Case: 18-11248

Date Filed: 10/22/2020

Page: 7 of 26

oneself, and thereby violating Faretta.” Cross v. United States, 893 F.2d 1287,
1290 (11th Cir. 1990).
Put simply, the trial court’s failure to override sua sponte the defendant’s
waiver of his right to counsel—where, as here, the waiver’s validity was clear,
uncontested on appeal, and repeatedly reaffirmed after signs of uncertainty—is due
to be affirmed.2 To find otherwise would contradict a “nearly universal conviction,
on the part of our people as well as our courts, that forcing a lawyer upon an
unwilling defendant is contrary to his basic right to defend himself if he truly
wants to do so.” Faretta, 422 U.S. at 817. Muho’s arguments to the contrary are
unpersuasive. He is not entitled to relief on this issue.
B. Denial of Subpoenas After Rule 17(b) Motion
Muho also argues that the district court abused its discretion in denying, in
part, his motion under Federal Rule of Criminal Procedure 17(b). Proceeding in
forma pauperis, Muho asked the court to waive costs and issue subpoenas for eight
witnesses under Rule 17(b). In his motion, Muho explained the relevance of two

2. Typically, review of a waiver of right to counsel would be de novo. See, e.g., United
States v. Garey, 540 F.3d 1253, 1268 (11th Cir. 2008) (noting that whether waiver of counsel
was knowing and voluntary is “a mixed question of law and fact which this Court reviews de
novo”). Here, however, Muho did not raise the issue below, which would ordinarily trigger plain
error review. See, e.g., United States v. Rodriguez, 398 F.3d 1291, 1298 (11th Cir. 2005). We
have not resolved the appropriate standard in such a context: “No published case in this Circuit
explicitly addresses the question, though the mine run of cases apply de novo review without
discussing whether a defendant formally objected at trial.” United States v. Stanley, 739 F.3d
633, 644 (11th Cir. 2014). We need not resolve this issue here; under either standard, the district
court is due to be affirmed.
7

App. 7

USCA11 Case: 18-11248

Date Filed: 10/22/2020

Page: 8 of 26

of these witnesses—Dr. Eli Shalenberger and Justice James Vaughn of the
Delaware Supreme Court—as follows:
Defendant’s third witness is Eli Shalenberger, Defendant’s
psychiatrist between 2012 and 2015. Defendant needs and expects Mr.
Shalenberger to testify that Defendant’s intentions were not to defraud
his hedge funds but to save them from misuse and to comply with the
law. This will negate that Defendant perpetrated a fraud scheme and
that Defendant used proceeds of fraud to engage in monetary
transactions. Defendant also expects Mr. Shalenberger to testify as to
Defendant’s state of mind from his conversations with the Defendant
relating to all counts of the case. Absent Mr. Shalenberger’s testimony,
Defendant will not be able to prove or show his defense to the jury of
the charged counts in this case.
Defendant’s fourth witness is Justice Vaughn of the Delaware
Supreme Court. Defendant needs and expects Justice Vaughn to testify
about the contents of an unrecorded telephone conference on a case
arising from the dispute of control of Defendant’s hedge funds that
Defendant needs to show and prove [to] the jury his intention not to
defraud his hedge funds, engage in a fraud scheme, or engage in
monetary transactions from criminal funds, and that will establish and
support Defendant’s defense regarding his intentions and motives for
all charged counts of the case. Without Justice Vaughn, Defendant will
not be able to show or prove to the jury that Defendant was the victim
set up by actors of said conference in their attempt to wrest away
Defendant’s control over his hedge funds and that Defendant lacked
criminal intent for all the charged counts of the case.
The court granted Muho’s motion for all witnesses except these two—as to whom
the motion was denied without explanation.
This court reviews the denial of a Rule 17(b) motion for abuse of discretion.
See United States v. Rinchack, 820 F.2d 1557, 1566 (11th Cir. 1987) (“The grant or
denial of a Rule 17(b) motion is committed to the discretion of the district court
8

App. 8

USCA11 Case: 18-11248

Date Filed: 10/22/2020

Page: 9 of 26

and is subject to reversal on appeal only upon a showing of abuse of that
discretion.”). “A district court abuses its discretion if it fails to apply the proper
legal standard or to follow proper procedures in making the determination, or
makes findings of fact that are clearly erroneous.” United States v. Izquierdo, 448
F.3d 1269, 1276 (11th Cir. 2006) (internal quotation marks and citation omitted).
If the evidentiary ruling was in error, the harmless error standard applies. United
States v. Henderson, 409 F.3d 1293, 1300 (11th Cir. 2005). That is, a decision
constitutes reversible error only if it “ha[s] a ‘substantial influence’ on the outcome
of a case or leave[s] ‘grave doubt’ as to whether [it] affected the outcome of a
case.” United States v. Frazier, 387 F.3d 1244, 1266 n.20 (11th Cir. 2004) (en
banc) (alterations added).
Rule 17(b) allows indigent defendants to subpoena a witness at the
government’s expense whose presence is a “necessity” to an “adequate defense.”
But the Rule places the burden on the defendant: “[A] defendant making a Rule
17(b) request bears the burden of articulating specific facts that show the relevancy
and necessity of the requested witness’s testimony.” Rinchack, 820 F.2d at 1566.
Courts considering a Rule 17(b) request may also consider the materiality,
competency, and timeliness of the request. See id. “The appellate courts have
upheld the refusal of district courts to issue a Rule 17(b) subpoena where the
request was untimely, the testimony sought was cumulative, or the defendant failed
9

App. 9

USCA11 Case: 18-11248

Date Filed: 10/22/2020

Page: 10 of 26

to make a satisfactory showing of indigency or necessity.” Id.; see also United
States v. Link, 921 F.2d 1523, 1528 (11th Cir. 1991) (summarizing the valid
considerations of courts considering a request made under Rule 17(b)).
Muho correctly points out that the district court provided no rationale, and
made no factual findings, when it denied the two requests. Findings would have
been helpful. But even without such findings, this Court can affirm based on its
own review of the record if it finds that the rejection was proper. See, e.g., United
States v. Gill, 864 F.3d 1279, 1280 (11th Cir. 2017) (“[W]e can affirm the district
court’s judgment on any ground supported by the record—even if that ground was
not considered or advanced in the district court.”).
Upon an independent review of the record, the trial court did not err in
denying the Justice Vaughn request. Muho’s proffer described testimony that
involved an unrecorded phone call between unidentified persons about unspecified
facts. It further asserted that the phone call would support certain conclusions
regarding Muho’s intent. But Muho’s proffer failed to indicate what facts
supported the conclusions, and it did not indicate why or how the evidence would
be relevant or admissible over hearsay or other objections. These assertions fell
short of meeting Muho’s burden to articulate “specific facts that show the
relevancy and necessity of the requested witness’s testimony.” Rinchack, 820 F.2d
at 1566 (emphasis added).
10

App. 10

USCA11 Case: 18-11248

Date Filed: 10/22/2020

Page: 11 of 26

Turning to Dr. Shalenberger, Muho stated that this witness would testify that
Muho’s “intentions were not to defraud his hedge funds” and about his “state of
mind . . . relating to all counts of the case”—a possible violation of Federal Rule of
Evidence 704(b). Although Rule 704(b) forbids expert testimony on the ultimate
issue in a case, a defendant may seek testimony from a psychiatrist regarding his
diagnosis, the particulars of a mental disease or defect, and his opinion as to a
defendant’s mental state. See United States v. Manley, 893 F.2d 1221, 1223 (11th
Cir. 1990).
Again, Muho has not made the requisite showing; he has not demonstrated
specific facts or admissible opinions from this witness that show relevancy and
necessity. Where a defendant does not meet his required burden, we have upheld
denials even when it is alleged that the court failed to make a relevant inquiry.
See, e.g., Rinchack, 820 F.2d at 1568 (“Although Rinchack argues that the district
court erred in not inquiring into what the two men might be expected to testify, the
law is crystal clear that the burden of showing necessity and relevance is on the
defendant.”). The trial court did not abuse its discretion in denying the
Shalenberger subpoena.
In any event, any purported error was harmless. Muho was convicted
quickly and under a great weight of evidence. After a trial lasting eleven days, the
jury deliberated for less than three hours before convicting Muho on all counts.
11

App. 11

USCA11 Case: 18-11248

Date Filed: 10/22/2020

Page: 12 of 26

Further, as he concedes, Muho was able to present the lack-of-intent defense
allegedly supported by the two witnesses. And, finally, nothing in the relevant
proffer or in Muho’s appellate briefing indicates that the testimony, if allowed and
admissible, would have substantially improved his case or his chances of a
different verdict. Given these facts, “we do not harbor a grave doubt that the jury
would have changed its verdict,” Henderson, 409 F.3d at 1300, if these two
witnesses had testified. We find no error that “affect[ed] a substantial right” of
Muho. Frazier, 387 F.3d at 1266 n.20 (alterations added).
C. Application of Sentencing Enhancement
Muho argues that the district court wrongly applied a two-level enhancement
in calculating his sentence. Again—although in a case of first impression—he is
incorrect.
The United States Sentencing Guidelines provide a two-level enhancement
when “the defendant derived more than $1,000,000 in gross receipts from one or
more financial institutions as a result of the offense.” U.S.S.G. § 2B1.1(b)(16)(A)
(2016 ed.). 3 “Gross receipts from the offense” is defined as “all property . . .
which is obtained directly or indirectly as a result of [the] offense.” Id. § 2B1.1
cmt. n.12(B) (2016 ed.); U.S.S.G. § 2B1.1 cmt. n.13(B) (2018 ed.). We review de

3. This enhancement is currently codified at U.S.S.G. § 2B1.1(b)(17)(A). Below, for the
sake of clarity, the enhancement is referred to as the § 2B1.1(b)(16)(A) enhancement.
12

App. 12

USCA11 Case: 18-11248

Date Filed: 10/22/2020

Page: 13 of 26

novo whether this enhancement applies. United States v. Rodriguez, 732 F.3d
1299, 1305 (11th Cir. 2013) (noting that this Court “reviews de novo the
interpretation and application of the Guidelines”).
HSBC-Monaco’s status as a financial institution is uncontested, but this
Circuit has not explicitly interpreted what it means to “derive[]” receipts from a
financial institution in this context. It is no small project. Section 2B1.1 of the
Guidelines applies to a broad range of criminal conduct including larceny,
embezzlement, and other forms of theft; offenses involving stolen property and
property damage or destruction; fraud and deceit; forgery; and offenses involving
altered or counterfeit instruments. In turn, these broad categories encompass bank
fraud, college scholarship fraud, Ponzi schemes, health care fraud, and a host of
other wrongs. Even when limited to property 4 taken from financial institutions, the
range of entities is vast.5 Crafting a standard that applies universally is all but
impossible.

4. We use the term “property” to refer to “gross receipts” as defined in the Guidelines.
U.S.S.G. § 2B1.1 cmt. n.12(B) (2016 ed.); U.S.S.G. § 2B1.1 cmt. n.13(B) (2018 ed.).
5. The relevant Guideline defines “financial institution” as “any institution described in
18 U.S.C. § 20, § 656, § 657, § 1005, § 1006, § 1007, or § 1014; any state or foreign bank, trust
company, credit union, insurance company, investment company, mutual fund, savings (building
and loan) association, union or employee pension fund; any health, medical, or hospital
insurance association; brokers and dealers registered, or required to be registered, with the
Securities and Exchange Commission; futures commodity merchants and commodity pool
operators registered, or required to be registered, with the Commodity Futures Trading
Commission; and any similar entity, whether or not insured by the federal government. ‘Union or
employee pension fund’ and ‘any health, medical, or hospital insurance association,’ primarily
include large pension funds that serve many persons (e.g., pension funds of large national and
13

App. 13

USCA11 Case: 18-11248

Date Filed: 10/22/2020

Page: 14 of 26

But we are not dealing with the economic universe here. Our factual starting
point is a specific spot on the financial map: financial institutions that exercise
control over the property of others. Muho argues that the government had to prove
that HSBC-Monaco owned, invested, or otherwise had unrestrained discretion to
alienate its depositor’s funds in order for the enhancement to apply. He asserts that
Soundview Elite’s status as depositor renders HSBC-Monaco’s control over the
funds irrelevant. The government counters that, by tricking the bank into
transferring Soundview’s funds to Muho’s account at another bank, Muho stole
from a bank account over which he had no authority and over which the bank
exercised control.
We hold today that, to trigger the § 2B1.1(b)(16)(A) enhancement, at least in
a case involving property held by a financial institution for a depositor, the
financial institution (1) must be the source of the property, which we interpret as
having property rights in the property, and (2) must have been victimized by the
offense conduct. These two requirements follow straightforwardly from the
Guideline’s text—that the defendant’s gross receipts be (1) “derived . . . from” a
financial institution (2) “as a result of the offense.” Because of the broad range of
conduct to which § 2B1.1 applies, this standard may not be a perfect fit for all

international organizations, unions, and corporations doing substantial interstate business), and
associations that undertake to provide pension, disability, or other benefits (e.g., medical or
hospitalization insurance) to large numbers of persons.” U.S.S.G. § 2B1.1 cmt. n.1.
14

App. 14

USCA11 Case: 18-11248

Date Filed: 10/22/2020

Page: 15 of 26

possible scenarios under this Guideline. However, it fits typical banking practices
involving funds held by banks for depositors. We will discuss the elements of this
standard in turn.
The words “derived . . . from” must be given their plain and ordinary
meaning. United States v. Tham, 118 F.3d 1501, 1506 (11th Cir. 1997). To
“derive” means “[t]o receive, as from a source . . . ; to obtain . . . by transmission.”
Webster’s New International Dictionary (2d ed. 1934). Thus, “derived . . . from”
calls for identification of the specific source of the property. See United States v.
Stinson, 734 F.3d 180, 184 (3d Cir. 2013) (first citing Black’s Law Dictionary 444
(6th ed. 1990); and then citing Webster’s Ninth New Collegiate Dictionary 342
(1986)). “Source” means that the financial institution, before the offense conduct,
possesses and controls the property to be filched: the “from” in “derived from.” In
shorthand, the financial institution “holds” the property. To clarify the source
requirement and its application here, some elementary background on banks—and
their relationship to the property they hold—is in order. We all use banks in our
daily lives, but what exactly does a bank do? As Merriam-Webster defines it, a
bank is “an establishment for the custody, loan, exchange, or issue of money, for
the extension of credit, and for facilitating the transmission of funds.” Bank,
Merriam-Webster Online, https://www.merriam-webster.com/dictionary/bank (last

15

App. 15

USCA11 Case: 18-11248

Date Filed: 10/22/2020

Page: 16 of 26

visited Oct. 22, 2020). Typical banking involves third-party financial
arrangements between a bank and its customers—usually depositors or borrowers.
In facilitating those transactions, the bank either takes a non-exclusive
property interest in another’s (the depositor’s) property or holds the property with
contractual instructions in the nature of a bailment. Either arrangement gives the
bank possession of and a measure of control over the property. See Shaw v. United
States, 137 S. Ct. 462, 466 (2016). It may be property held in an ordinary deposit
account, in trust, or in a safe deposit box or other storage arrangement (say,
valuable art), or it may be property that has been foreclosed upon or repossessed
and that is awaiting disposition. Thus, money deposited in a bank by a third-party
depositor is property necessarily involving property rights.
Shaw is instructive here because it rejects the argument that Muho now
makes—namely, that full ownership is required. Shaw involved a prosecution
under 18 U.S.C. § 1344 for defrauding a financial institution. Section 1344 makes
it unlawful for anyone to “knowingly execute[] . . . a scheme . . . to obtain any of
the moneys . . . owned by, or under the custody or control of, a financial
institution, by means of false or fraudulent pretenses, representations, or
promises.” 18 U.S.C. § 1344(2). Shaw wrongfully took money from the deposit
account of another depositor at the bank by means of deception of the bank, much
the same as Muho’s conduct here. Shaw argued that the statute does not cover
16

App. 16

USCA11 Case: 18-11248

Date Filed: 10/22/2020

Page: 17 of 26

schemes to deprive a bank of customer deposits; it only covers the taking of the
bank’s own property. The Supreme Court disagreed. “The basic flaw in this
argument lies in the fact that the bank, too, had property rights in Hsu’s [the other
depositor’s] bank account.” Shaw, 137 S. Ct. at 466 (emphasis added) (alterations
added). The Court likened such arrangements to a bailment:
[A]s bailee, the bank can assert the right to possess the deposited
funds against all the world but for the bailor . . . . This right, too, is a
property right. . . . Thus, Shaw’s scheme to cheat Hsu was also a
scheme to deprive the bank of certain bank property rights.
Hence, for purposes of the bank fraud statute, a scheme
fraudulently to obtain funds from a bank depositor’s account normally
is also a scheme fraudulently to obtain from a “financial institution,” at
least where, as here, the defendant knew that the bank held the deposits,
the funds obtained came from the deposit account, and the defendant
misled the bank in order to obtain those funds.
Id. (emphasis added). We see no difference, in the context of a bank holding
deposited funds for a third party, in “obtaining” funds (statute) and “deriving”
funds (guideline) from a financial institution. In defining “gross receipts,” the
Sentencing Commission said as much: “all property . . . which is obtained directly
or indirectly as a result of [the] offense.” § 2B1.1 cmt. n.13(B) (2018 ed.)
(emphasis added). In both cases, the source of the funds is the bank.
Importantly, the financial institution as a “source” need not have full
ownership of the property. Our perspective recognizes the routine practices of
many financial institutions, like banks, which exercise varying degrees of
17

App. 17

USCA11 Case: 18-11248

Date Filed: 10/22/2020

Page: 18 of 26

dominion or control over property that is technically owned by others. Had the
Sentencing Commission intended for this enhancement to apply solely to property
“owned by” a financial institution, it would likely have employed the terms
“owned by” or “belonging to” rather than “derived . . . from.” Cf. Loughrin v.
United States, 573 U.S. 351, 366 n.9 (2014) (“[T]he broad language in § 1344(2)
describing the property at issue—‘property owned by or under the custody or
control of’ a bank—appears calculated to avoid entangling courts in technical
issues of banking law about whether the financial institution or, alternatively, a
depositor would suffer the loss from a successful fraud.”) (citation omitted).
Muho relies on the Third Circuit’s decision in Stinson. In that case, which
did not involve banking at all, but rather investment companies as financial
institutions, the Third Circuit held that “[a] financial institution is a source of a
defendant’s gross receipts if it owns the funds,” and it defined ownership as
“exercis[ing] dominion and control over the funds and ha[ving] unrestrained
discretion to alienate the funds.” 734 F.3d at 186. Muho’s suggestion—that
ownership of the property determines from whom it was “derived”—is inconsistent
with the plain language of the Guidelines and with modern banking practices.
The Stinson Court, despite its definition of “source,” did not resolve the
issue consistently with its own definition. There, the fraudster, Stinson, used
fictitious marketing materials to induce two legitimate investment firms,
18

App. 18

USCA11 Case: 18-11248

Date Filed: 10/22/2020

Page: 19 of 26

Brentwood and TWM, to market his fraudulent enterprise to investors. Brentwood
and TWM were financial institutions, which formed the basis for the guideline
application. The key distinction in Stinson for our purposes was made by the Court
itself. On the record before it, the Court could not say whether the investment
firms only advised their clients to invest directly with Stinson, or whether the
investment firms “retained control over the assets of certain clients and invested . .
. on their behalf.” Id. at 182 (emphasis added). Stinson argued “the money flowed
from individual investors, not financial institutions like Brentwood and TWM.”
Id. at 183. In a telling conclusion, the Court admitted: “[W]e are unable to
conclude definitively that the enhancement does not apply because the record is
unclear as to whether Brentwood or TWM invested any money on behalf of their
clients. The record as developed on remand may indeed support application of the
enhancement.” Id. at 187 (emphasis added).
Thus, Stinson did not hold that the financial institution had to be the sole
owner of the funds obtained by fraud, and it remanded the case for the trial court to
resolve the source of some of the funds. If the financial institution controlled or
possessed investor funds with the “unrestrained discretion” to invest them on
behalf of the investor, id. at 186, Stinson suggests that the enhancement would
apply even in spite of a potential finding on remand that the financial institution

19

App. 19

USCA11 Case: 18-11248

Date Filed: 10/22/2020

Page: 20 of 26

did not actually own the funds in question.6 Accordingly, Stinson does not carry
the freight of Muho’s argument.
Finally, to establish the financial institution as the source of the derived
funds, the sentencing court must find that the relevant property flowed directly or
indirectly from the possession or control of the financial institution to the
defendant. See generally United States v. Van Alstyne, 584 F.3d 803, 819 (9th Cir.
2009) (“Under this language, the only effect on a financial institution that counts is
money flowing from a financial institution into the defendant’s coffers.”). It
clearly did so here: HSBC-Monaco transferred $2 million from Soundview Elite’s
HSBC-Monaco bank account to Leveraged Hawk’s Citibank account—as a result
of Muho’s trickery.
Which brings us logically to the second prong: Because the enhancement
applies only if the defendant’s derivation of gross receipts from a financial
institution is “as a result of the offense,” the financial institution must be—as
HSBC-Monaco was—victimized by the offense conduct. This element is easily
met when the financial institution’s own property has been “derived” by a thief or
fraudster, such as in larceny or in an “inside” job, like embezzlement, loan fraud,

6. There may be a reason to define “source” differently in the investment realm as
opposed to banking, but Stinson did not address banking and banks—and we do not address
investment houses—as financial institutions.
20

App. 20

USCA11 Case: 18-11248

Date Filed: 10/22/2020

Page: 21 of 26

or theft of bank property by an employee. And it is equally true here: Muho used
fraudulent documents to convince the bank that he had control over the account of
another, thereby inducing the bank to wire the funds of another to Muho’s account
without even looking at the third base coach to see if it should swing or not. The
bank swung away and made contact. Muho caught the funds and made out of the
stadium gates like a bat out of Boston.7
This play separates the facts of our case from those in United States v.
Huggins, 844 F.3d 118 (2d Cir. 2016), a case in which investors were duped by a
fraudster to deposit funds into the fraudster’s account from which the fraudster,
predictably and legally, withdrew them. The Second Circuit recognized that,
though the funds were withdrawn from the bank, the defendant derived property
from the investors, not the bank. In a fit of unintended understatement, the Court
wrote that “[a]pplying the enhancement to all cases where a defendant merely
withdraws money from his own bank account at a financial institution cuts too
broadly . . . .” Id. at 120–21. Our holding today is consistent with Huggins. The
financial institution must be a target of the offense conduct.
The Guideline’s history supports such a reading. Prior to its amendment,
this Guideline enhancement called for a four-level enhancement “[i]f the
offense . . . affected a financial institution and the defendant derived more than

7. We do not intend to implicate the Red Sox in this fraud.
21

App. 21

USCA11 Case: 18-11248

Date Filed: 10/22/2020

Page: 22 of 26

$1,000,000 in gross receipts from the offense.” U.S.S.G. § 2B1.1(b)(6)(B) (2000
ed.) (emphasis added). As the Ninth Circuit pointed out, “under this [previous]
language any impact on a financial institution would do.” Van Alstyne, 584 F.3d at
819. In contrast, the modern Guideline “makes equally clear that the enhancement
only applies if gross receipts in excess of $1 million are derived from a financial
institution.” Id. (emphasis added). The new Guideline is thus narrower than its
predecessor. As the Third Circuit recognized, “mere tangential effects on financial
institutions will not support application of the enhancement.” Stinson, 734 F.3d at
186. “Deriving” gross receipts from a financial institution demands more than
being “affected.” While a financial institution may be “affected” if it faces
heightened exposure to risk or serves as a conduit for transfers of property,
property is only “derived” from a financial institution if sufficient indicia of source
and victimization are present.8

8. District courts are instructed to apply this narrower two-level enhancement or to apply
a four-level enhancement “[i]f . . . the offense (i) substantially jeopardized the safety and
soundness of a financial institution; or (ii) substantially endangered the solvency or financial
security of an organization that, at any time during the offense, (I) was a publicly traded
company; or (II) had 1,000 or more employees,” whichever is greater. U.S.S.G. §
2B1.1(b)(16)(B) (2016 ed.); U.S.S.G. § 2B1.1(b)(17)(B) (2018 ed.). One rationale for the
enhancement, illustrated by its bifurcation into two- and four-level applications, is that deriving
more than $1 million from a financial institution has greater potential spillover effects than
deriving more than $1 million from Mr. or Ms. Private Citizen. Taking that much money from a
financial institution impacts the financial system because, e.g., it could trigger an FDIC audit or
payout, it could endanger the deposits or investments of many innocent people, and it could
prompt layoffs or stock selloffs. In a small enough financial institution or a big enough heist,
such conduct could jeopardize the institution’s solvency, shake public or community confidence
in the financial system, and deter individuals from depositing or investing their money.
22

App. 22

USCA11 Case: 18-11248

Date Filed: 10/22/2020

Page: 23 of 26

These factors—source and victimization—are cousins. They both overlap
and operate independently to define the scope of the enhancement’s application.
The source prong requires an intentional, close examination and finding of from
whence the property is derived, and our definition clarifies that a defendant may
“derive” property of which the financial institution is not the sole owner. The
victimization prong acts to cabin the meaning of “source.” It ensures that the
enhancement does not apply when the defendant derived property that he or she
had some lawful right of ownership, possession, or control over, as in Huggins. In
other words, the offender cannot be the owner of the property, nor have a right to
control the property for the enhancement to apply. When it is the offender’s own
funds that are being held by the bank, he cannot victimize the bank because he can
do whatever he wants with his own money.
Nor does the enhancement apply when the bank holds the property, but is
not the victim of the heist. An example would be if, as stated above, Muho
convinced Soundview Elite to direct HSBC-Monaco to wire Soundview funds
from its account into Muho’s account. Or a nefarious nephew might unduly
influence a rich aunt to go into her safe deposit box and give him cash and jewels
in excess of $1 million. In both examples, the enhancement would not apply, but
the property was held by a bank which was not the victim.

23

App. 23

USCA11 Case: 18-11248

Date Filed: 10/22/2020

Page: 24 of 26

Furthermore, our holding does not implicate pass-through banking conduct,
like ordinary checking transactions and wire transfers.9 An ordinary wire transfer
is simply an electronic check, an instant transfer of funds rather than a multistep
transfer of a piece of physical paper representing funds the bank holds for a
depositor. An ordinary check takes days to clear in customary banking practices; a
wire transfer “clears” almost instantly. But it is the same transaction: Funds pass
from one bank to another, not through a bank. The sending bank possesses the
funds initially; the recipient bank possesses them ultimately. In no way would the
guideline apply to either ordinary wire transfers or checking transactions, not
because of the source requirement, but because of the victimization requirement.
In many cases involving banks, the victimization prong may end up doing
most of the work. Muho snookered the system; he tricked the bank with forged
documents, inducing the bank to initiate the wire transfer. As it happened, the

9. A wire transfer is a “transfer of funds done electronically across a network of banks . . .
around the world.” Julia Kagan, What Is a Wire Transfer?, Investopedia (May 29, 2020),
https://www.investopedia.com/terms/w/wiretransfer.asp (last visited Oct. 22, 2020). “No
physical money is transferred between banks or financial institutions when conducting a wire
transfer [nor does a check transfer physical money].” Id. (brackets added). “Instead, information
is passed between banking institutions about the recipient, the bank receiving account number,
and the amount transferred.” Id. “The sending bank sends a message to the recipient’s bank
with payment instructions through a secure system . . . . The recipient’s bank receives all the
necessary information from the initiating bank and deposits its own reserve funds into the correct
account.” Id. “The two banking institutions then settle the payment on the back end (after the
money has already been deposited) [same as a check].” Id. (brackets added).
24

App. 24

USCA11 Case: 18-11248

Date Filed: 10/22/2020

Page: 25 of 26

bank was both the source of the funds and the victim of the offense, and the
guideline enhancement was triggered.
To sum up, the Guideline was correctly applied. First, HSBC-Monaco, not
Muho, was a source of the derived property. Second, control over the property
transferred directly from HSBC-Monaco to Muho. Third, the bank was not just a
conduit for a transfer of property that resulted from criminal conduct directed
elsewhere; rather, the bank was a victim of Muho’s fraud. For purposes of this
sentencing enhancement, we hold that Muho derived the property from HSBCMonaco. The sentencing court did not err in applying the two-level enhancement.
D. Substantive Reasonableness of Sentence
Finally, Muho argues that his sentence was substantively unreasonable. We
review a claim that a sentence is substantively unreasonable under “a deferential
abuse of discretion standard.” United States v. Early, 686 F.3d 1219, 1221 (11th
Cir. 2012).
In considering the reasonableness of a sentence, the Eleventh Circuit looks
to the 18 U.S.C. § 3553(a) factors, “tak[ing] into account the totality of the
circumstances.” Gall v. United States, 552 U.S. 38, 51 (2007). A district court
“abuses its considerable discretion” only when it “(1) fails to afford consideration
to relevant factors that were due significant weight, (2) gives significant weight to
an improper or irrelevant factor, or (3) commits a clear error of judgment in
25

App. 25

USCA11 Case: 18-11248

Date Filed: 10/22/2020

Page: 26 of 26

considering the proper factors.” United States v. Rosales-Bruno, 789 F.3d 1249,
1256 (11th Cir. 2015) (quoting United States v. Irey, 612 F.3d 1160, 1189 (11th
Cir. 2010) (en banc)). In this context, Muho must show that his sentence “lies
outside the range of reasonable sentences dictated by the facts of the case.” Irey,
612 F.3d at 1190 (internal quotation marks and citation omitted). Perhaps
unsurprisingly, sentences are rarely overturned. See, e.g., id. at 1191.
Muho’s sentence was not substantively unreasonable. Though the
Guidelines are not themselves dispositive, sentences that fall within the Guidelines
range or that are below the statutory maximum are generally reasonable. See, e.g.,
United States v. Hunt, 941 F.3d 1259, 1264 (11th Cir. 2019) (“We have said that if
the sentence imposed is below the statutory maximum . . . that is a factor indicating
that the sentence is reasonable.”). Muho received a small downward variance and
his sentence was far below the applicable statutory maximum. Moreover, Muho
concedes that the district court considered the relevant factors and “determined that
a slight variance was warranted.”
Accordingly, having reviewed the substantive reasonableness of Muho’s
sentence, we find that the district court did not abuse its discretion.
III.
Muho’s conviction and sentence are AFFIRMED.

26

App. 26

Case 1:16-cr-20390-BB Document 338 Entered on FLSD Docket 03/13/2018 Page 1 of 7
USDC FLSD 245B (Rev. 09/08) - Judgment in a Criminal Case

Page 1 of 7

UNITED STATES DISTRICT COURT
Southern District of Florida
Miami Division
UNITED STATES OF AMERICA
v.
GERTI MUHO

JUDGMENT IN A CRIMINAL CASE
Case Number: 16-20390-CR-BLOOM-001(s)(s)
USM Number: 89343-053
Counsel For Defendant: Thomas William Risavy, Esq.
Counsel For The United States: Sean Thomas McLaughlin,
AUSA
Court Reporter: Yvette Hernandez

The defendant was found guilty at trial by jury verdict on counts 1 through 40 of the second superseding
indictment.
The defendant is adjudicated guilty of these offenses:
TITLE & SECTION

NATURE OF OFFENSE

18 U.S.C. § 1344
18 U.S.C. §1343
18 U.S.C. § 1343
18 U.S.C. § 1028A(a)(1),(b)(2)
18 U.S.C. § 1957(a),(b)(1)
18 U.S.C. § 1957(a), (b)(1)
18 U.S.C. § 1957(a), (b)(1)

Bank Fraud
Wire fraud affecting a financial institution
Wire fraud
Aggravated identity theft
Money laundering
Money laundering
Money laundering

OFFENSE
ENDED
5/17/2016
5/17/2016
5/17/2016
5/17/2016
5/17/2016
5/17/2016
5/17/2016

COUNT
1-17
18
19
20-37
38
39
40

The defendant is sentenced as provided in the following pages of this judgment. The sentence is imposed
pursuant to the Sentencing Reform Act of 1984.
It is ordered that the defendant must notify the United States attorney for this district within 30 days of any
change of name, residence, or mailing address until all fines, restitution, costs, and special assessments imposed
by this judgment are fully paid. If ordered to pay restitution, the defendant must notify the court and United States
attorney of material changes in economic circumstances.
Date of Imposition of Sentence: 3/9/2018

____________________________________________
Beth Bloom
United States District Judge

Date: 3/12/2018

App. 27

Case 1:16-cr-20390-BB Document 338 Entered on FLSD Docket 03/13/2018 Page 2 of 7
USDC FLSD 245B (Rev. 09/08) - Judgment in a Criminal Case

Page 2 of 7

DEFENDANT: GERTI MUHO
CASE NUMBER: 16-20390-CR-BLOOM-001(s)(s)
IMPRISONMENT
The defendant is hereby committed to the custody of the United States Bureau of Prisons to be imprisoned for a
total term of 264 months. This sentence consist of 240 months as to each of Counts 1 through 18; 240
months as to Count 19; 120 months as to each of Counts 38 through 40, to be served concurrently with
each other, and 24 months as to each of Counts 20 through 37, to be served concurrently with each other
and consecutively to Counts 1 through 19, 38 through 40.
The court makes the following recommendations to the Bureau of Prisons: That the defendant be
designated to a facility in New York or as close to New York as possible.
The defendant is remanded to the custody of the United States Marshal.
RETURN
I have executed this judgment as follows:

Defendant delivered on ________________________________________ to ________________________________________
at ________________________________________, with a certified copy of this judgment.

___________________________________________
UNITED STATES MARSHAL

___________________________________________
DEPUTY UNITED STATES MARSHAL

App. 28

Case 1:16-cr-20390-BB Document 338 Entered on FLSD Docket 03/13/2018 Page 3 of 7
USDC FLSD 245B (Rev. 09/08) - Judgment in a Criminal Case

Page 3 of 7

DEFENDANT: GERTI MUHO
CASE NUMBER: 16-20390-CR-BLOOM-001(s)(s)
SUPERVISED RELEASE
Upon release from imprisonment, the defendant shall be on supervised release for a term of Five (5) years as to each of
Counts 1 through 18, Three (3) years as to each of Counts 19, 38 through 40, and One (1) year as to each of Counts
20 through 37, all such terms to run concurrently.
The defendant must report to the probation office in the district to which the defendant is released within 72 hours of release
from the custody of the Bureau of Prisons.
The defendant shall not commit another federal, state or local crime.
The defendant shall not unlawfully possess a controlled substance. The defendant shall refrain from any unlawful use of a
controlled substance. The defendant shall submit to one drug test within 15 days of release from imprisonment and at least
two periodic drug tests thereafter, as determined by the court.
The defendant shall not possess a firearm, ammunition, destructive device, or any other dangerous weapon.
The defendant shall cooperate in the collection of DNA as directed by the probation officer.
If this judgment imposes a fine or restitution, it is a condition of supervised release that the defendant pay in accordance
with the Schedule of Payments sheet of this judgment.
The defendant must comply with the standard conditions that have been adopted by this court as well as with any additional
conditions on the attached page.

STANDARD CONDITIONS OF SUPERVISION
1. The defendant shall not leave the judicial district without the permission of the court or probation officer;
2. The defendant shall report to the probation officer and shall submit a truthful and complete written report within the first fifteen
days of each month;
3. The defendant shall answer truthfully all inquiries by the probation officer and follow the instructions of the probation officer;
4. The defendant shall support his or her dependents and meet other family responsibilities;
5. The defendant shall work regularly at a lawful occupation, unless excused by the probation officer for schooling, training, or
other acceptable reasons;
6. The defendant shall notify the probation officer at least ten days prior to any change in residence or employment;
7. The defendant shall refrain from excessive use of alcohol and shall not purchase, possess, use, distribute, or administer any
controlled substance or any paraphernalia related to any controlled substances, except as prescribed by a physician;
8. The defendant shall not frequent places where controlled substances are illegally sold, used, distributed, or administered;
9. The defendant shall not associate with any persons engaged in criminal activity and shall not associate with any person convicted
of a felony, unless granted permission to do so by the probation officer;
10.The defendant shall permit a probation officer to visit him or her at any time at home or elsewhere and shall permit confiscation
of any contraband observed in plain view of the probation officer;
11.The defendant shall notify the probation officer within seventy-two hours of being arrested or questioned by a law enforcement
officer;
12.The defendant shall not enter into any agreement to act as an informer or a special agent of a law enforcement agency without the
permission of the court; and
13.As directed by the probation officer, the defendant shall notify third parties of risks that may be occasioned by the defendant’s
criminal record or personal history or characteristics and shall permit the probation officer to make such notifications and to
confirm the defendant’s compliance with such notification requirement.

App. 29

Case 1:16-cr-20390-BB Document 338 Entered on FLSD Docket 03/13/2018 Page 4 of 7
USDC FLSD 245B (Rev. 09/08) - Judgment in a Criminal Case

Page 4 of 7

DEFENDANT: GERTI MUHO
CASE NUMBER: 16-20390-CR-BLOOM-001(s)(s)
SPECIAL CONDITIONS OF SUPERVISION
Financial Disclosure Requirement - The defendant shall provide complete access to financial information,
including disclosure of all business and personal finances, to the U.S. Probation Officer.
Mental Health Treatment - The defendant shall participate in an approved inpatient/outpatient mental health
treatment program. The defendant will contribute to the costs of services rendered (co-payment) based on ability
to pay or availability of third party payment.
No New Debt Restriction - The defendant shall not apply for, solicit or incur any further debt, included but not
limited to loans, lines of credit or credit card charges, either as a principal or cosigner, as an individual or through
any corporate entity, without first obtaining permission from the United States Probation Officer.
Related Concern Restriction - The defendant shall not own, operate, act as a consultant, be employed in, or
participate in any manner, in any related concern during the period of supervision.
Self-Employment Restriction - The defendant shall obtain prior written approval from the Court before entering
into any self-employment.
Substance Abuse Treatment - The defendant shall participate in an approved treatment program for drug and/or
alcohol abuse and abide by all supplemental conditions of treatment. Participation may include
inpatient/outpatient treatment. The defendant will contribute to the costs of services rendered (co-payment) based
on ability to pay or availability of third party payment.
Unpaid Restitution, Fines, or Special Assessments - If the defendant has any unpaid amount of restitution,
fines, or special assessments, the defendant shall notify the probation officer of any material change in the
defendant’s economic circumstances that might affect the defendant’s ability to pay.

App. 30

Case 1:16-cr-20390-BB Document 338 Entered on FLSD Docket 03/13/2018 Page 5 of 7
USDC FLSD 245B (Rev. 09/08) - Judgment in a Criminal Case

Page 5 of 7

DEFENDANT: GERTI MUHO
CASE NUMBER: 16-20390-CR-BLOOM-001(s)(s)
CRIMINAL MONETARY PENALTIES
The defendant must pay the total criminal monetary penalties under the schedule of payments on Sheet 6.

TOTALS

Assessment
Total $4,000.00
($100.00 as to each of counts 1
through 40)

Fine

Restitution

$0.00

$1,733,198.46

The defendant must make restitution (including community restitution) to the attached list of payees in the
amount listed below.
If the defendant makes a partial payment, each payee shall receive an approximately proportioned
payment, unless specified otherwise in the priority order or percentage payment column below. However,
pursuant to 18 U.S.C. § 3664(i), all nonfederal victims must be paid before the United States is paid.

NAME OF PAYEE
TRAVIS VIOLA
C/O R. O’NEILL, ESQ., SHUTTS & BOWEN
200 SOUTH BISCAYNE BOULEVARD,
SUITE 4100
MIAMI, FL 33131
UNITED STATES
AMOUNT: $176,474.89
SALLIE MAE BANK
P.O. BOX 3350
WILLMINGTON, DE 19804
UNITED STATES
AMOUNT: $15,000.00
WELLS FARGO BANK
420 MONTGOMERY STREET
SAN FRANCISCO, CA 94163
UNITED STATES
AMOUNT: $26,852.04
BANK OF AMERICA
P.O. BOX 15047
WILMINGTON, DE 19850-5047
UNITED STATS
AMOUNT: $565.00
PNC BANK
500 FIRST AVENUE
PITTSBURG, PA 15219
UNITED STATES
AMOUNT: $10,746.14

TOTAL LOSS*

RESTITUTION
ORDERED

PRIORITY OR
PERCENTAGE

$176,474.89

$176,474.89

100%

$15,000.00

$15,000.00

100%

$26,852.04

$26,852.04

100%

$565.00

$565.00

100%

$10,746.14

$10,746.14

100%

App. 31

Case 1:16-cr-20390-BB Document 338 Entered on FLSD Docket 03/13/2018 Page 6 of 7
USDC FLSD 245B (Rev. 09/08) - Judgment in a Criminal Case

SOUNDVIEW ELITE
C/O CORRINE BALL, ESQ., JONES DAY
250 VESEY STREET
NEW YORK CITY, NY 10281
UNITED STATES
AMOUNT$1,491,132.93
AMERICAN EXPRESS
18850 N 56 STREET
PHOENIX, AZ 85054
UNITED STATES
AMOUNT: $2,667.47
CAPITAL ONE
C/O CORY WADDY
P.O. BOX 85582
RICHMOND, VA 23260
UNITED STATES
AMOUNT: $4,950.00
BARCLAYS BANK
C/O JANET BRANCH, BARCLAYS BANK
OF DELAWARE
700 PRIDE CROSSING ROOM113
NEWARD, DE 19713
UNITED STATES
AMOUNT: $1,352.86
AMSCOT FINANCIAL
C/O JESSICA WHEELER
600 N. WESTSHORE BLVD. SUITE 1200
TAMPA, FL 33609
UNITED STATES
AMOUNT: $1,552.00
SUNTRUST BANK
C/O LEGALDEPARTMENT
303 PEACHTREE STREET, N.E.
ATLANTA, GA 30308-3201
UNITED STATES
AMOUNT: $1,905.13

Page 6 of 7

$1,491,132.93

$1,491,132.93

100%

$2,667.47

$2,667.47

100%

$4,950.00

$4,950.00

100%

$1,352.86

$1,352.86

100%

$1,552.00

$1,552.00

100%

$1,905.13

$1,905.13

100%

Restitution with Imprisonment - It is further ordered that the defendant shall pay restitution in the
amount of $1,733,198.46. During the period of incarceration, payment shall be made as follows: (1) if the
defendant earns wages in a Federal Prison Industries (UNICOR) job, then the defendant must pay 50% of
wages earned toward the financial obligations imposed by this Judgment in a Criminal Case; (2) if the
defendant does not work in a UNICOR job, then the defendant must pay a minimum of $25.00 per quarter
toward the financial obligations imposed in this order. Upon release of incarceration, the defendant shall
pay restitution at the rate of 10% of monthly gross earnings, until such time as the court may alter that
payment schedule in the interests of justice. The U.S. Bureau of Prisons, U.S. Probation Office and U.S.
Attorney’s Office shall monitor the payment of restitution and report to the court any material change in
the defendant’s ability to pay. These payments do not preclude the government from using other assets or
income of the defendant to satisfy the restitution obligations.
* Findings for the total amount of losses are required under Chapters 109A, 110, 110A, and 113A of Title 18 for offenses committed on
or after September 13, 1994, but before April 23, 1996.**Assessment
due immediately unless otherwise ordered by the Court.
App. 32

Case 1:16-cr-20390-BB Document 338 Entered on FLSD Docket 03/13/2018 Page 7 of 7
USDC FLSD 245B (Rev. 09/08) - Judgment in a Criminal Case

Page 7 of 7

DEFENDANT: GERTI MUHO
CASE NUMBER: 16-20390-CR-BLOOM-001(s)(s)
SCHEDULE OF PAYMENTS
Having assessed the defendant’s ability to pay, payment of the total criminal monetary penalties is due as
follows:
A. Lump sum payment of $4,000.00 due immediately.
Unless the court has expressly ordered otherwise, if this judgment imposes imprisonment, payment of criminal
monetary penalties is due during imprisonment. All criminal monetary penalties, except those payments made
through the Federal Bureau of Prisons’ Inmate Financial Responsibility Program, are made to the clerk of the
court.
The defendant shall receive credit for all payments previously made toward any criminal monetary penalties
imposed.
This assessment/restitution is payable to the CLERK, UNITED STATES COURTS and is to be addressed to:
U.S. CLERK'S OFFICE
ATTN: FINANCIAL SECTION
400 NORTH MIAMI AVENUE, ROOM 08N09
MIAMI, FLORIDA 33128-7716
The assessment/restitution is payable immediately. The U.S. Bureau of Prisons, U.S. Probation Office and the
U.S. Attorney's Office are responsible for the enforcement of this order.
Defendant and Co-Defendant Names and Case Numbers (including defendant number), Total Amount, Joint and
Several Amount, and corresponding payee, if appropriate.
CASE NUMBER
DEFENDANT AND CO-DEFENDANT NAMES
(INCLUDING DEFENDANT NUMBER)

TOTAL AMOUNT

JOINT AND SEVERAL
AMOUNT

The Government shall file a preliminary order of forfeiture within 3 days.
Payments shall be applied in the following order: (1) assessment, (2) restitution principal, (3) restitution interest,
(4) fine principal, (5) fine interest, (6) community restitution, (7) penalties, and (8) costs, including cost of
prosecution and court costs.

App. 33

